 OFFICE OF INSPECTOR GENERAL 

                 Audit Report
 

Examination of Management’s Assertion of Compliance with 

 the Extended Unemployment Benefit Payment Provisions 

 of the American Recovery and Reinvestment Act of 2009 



                   Report No. 10-05 

                    March 24, 2010 





    RAILROAD RETIREMENT BOARD
 

                         UNITED STATES RAILROAD RETIREMENT BOARD


                                         OFFICE OF INSPECTOR GENERAL





To the Board Members:

The following
     following report
               report presents
                       presents the results of the Office
                                                    Office of Inspector
                                                              Inspector General's
                                                                         General's (OIG)
examination
examination of the Railroad
                      Railroad Retirement
                                Retirement Board's
                                            Board's (RRB) assertion
                                                            assertion that
                                                                       that it has
complied
complied with section    2006(a) of the American
                section 2006(a)          American Recovery
                                                    Recovery and Reinvestment
                                                                   Reinvestment Act  Act of
2009
2009 (Recovery
       (Recovery Act). This
                         This section
                               section appropriated  funding for a temporary
                                        appropriated funding       temporary increase
                                                                                 increase
in extended
   extended unemployment
              unemployment benefits
                                benefits under
                                         under the Railroad Unemployment
                                                             Unemployment Insurance
                                                                                Insurance
Act (RUIA) to employees
               employees receiving
                             receiving normal
                                        normal unemployment
                                                unemployment benefits
                                                                benefits for
                                                                         for days
                                                                             days
between
between July
          July 1, 2008
                  2008 and June
                              June 30, 2009.

AUDITOR'S OPINION

We
We have examined
           examined the RRB's
                           RRB's assertion
                                  assertion of compliance
                                               compliance with section
                                                                section 2006(a)
                                                                        2006(a) of the
Recovery
Recovery ActAct through
                through September
                         September 3,2009.
                                     3,2009. In our opinion,
                                                     opinion, management's
                                                               management's
assertion
assertion that
           that the RRB complied
                          complied with the aforementioned
                                             aforementioned requirements,
                                                              requirements, is fairly
                                                                               fairly
stated, in all material
               material respects.
                        respects.

CONSIDERATION OF INTERNAL CONTROL

In planning
   planning and performing
                  performing our
                              our examination,
                                  examination, we considered
                                                    considered the RRB's
                                                                    RRB's internal
                                                                           internal
control
control over
        over compliance
              compliance with section
                               section 2006(a)
                                        2006(a) of the Recovery       We did this to
                                                       Recovery Act. We
determine
determine our procedures
                procedures for examining
                                examining the RRB's    assertion of compliance
                                                RRB's assertion     compliance and
not to express      opinion on internal
       express an opinion      internal control. Accordingly,
                                                 Accordingly, we do not express
                                                                         express an
opinion
opinion on internal
            internal control
                     control over
                             over compliance
                                  compliance with the aforementioned
                                                       aforementioned requirements.
                                                                        requirements.

Evaluation
Evaluation of internal
                internal control was not an objective
                         control was         objective of our examination
                                                               examination and our
internal control
internal  control work
                  work would       necessarily disclose
                        would not necessarily  disclose all deficiencies
                                                            deficiencies in internal
                                                                            internal
                                                                                  1
control
control that
         that might
              might be material  weaknesses or other
                        material weaknesses       other significant
                                                        significant deficiencies.
                                                                    deficiencies.




1  A deficiency
     deficiency in internal
                      internal control
                                control exists   when the design
                                         exists when         design or operation
                                                                        operation of a control
                                                                                         control does
                                                                                                  does not allow
                                                                                                             allow
management or employees,
management           employees, in the normal
                                            normal course
                                                     course of performing
                                                                 performing their
                                                                              their assigned    functions, to prevent,
                                                                                     assigned functions,
detect, or correct    errors in assertions
            correct errors        assertions made
                                               made by management
                                                           management on a timely
                                                                                timely basis. A material     weakness
                                                                                                   material weakness
is a significant
     significant deficiency,
                   deficiency, or combination
                                    combination of significant
                                                       significant deficiencies,   that results
                                                                   deficiencies, that   results in more
                                                                                                   more than a
remote
remote likelihood
         likelihood that
                       that a material   misstatement of the subject
                               material misstatement              subject matter
                                                                          matter will not be prevented
                                                                                                prevented or
detected.
detected. A significant       deficiency is a deficiency
                significant deficiency         deficiency in internal
                                                               internal control,
                                                                        control, or combination
                                                                                      combination of deficiencies,
                                                                                                       deficiencies,
that adversely
that adversely affects
                  affects the entity's
                                entity's ability
                                         ability to initiate, authorize,           process, or report
                                                              authorize, record, process,        report data
                                                                                                        data reliably in
accordance
accordance with the applicable
                          applicable criteria
                                       criteria or framework
                                                   framework such that that there
                                                                            there is more
                                                                                       more than a remote
                                                                                                     remote likelihood
                                                                                                              likelihood
that    misstatement of
that a misstatement       of the subject
                                  subject matter
                                           matter that is more
                                                            more than inconsequential
                                                                        inconsequential will not be prevented
                                                                                                        prevented or
detected.
detected.


844 N RUSH STREET CHICAGO IL 60611-2092                                                           Printed on recycled paper
BACKGROUND

The Recovery    Act appropriated
      Recovery Act                 funds for job
                     appropriated funds        job preservation
                                                    preservation and creation,
                                                                        creation,
infrastructure
infrastructure investment,
               investment, energy
                             energy efficiency
                                     efficiency and science,
                                                       science, assistance
                                                                 assistance to the
unemployed,
unemployed, and state
                    state and local fiscal stabilization.   Within the Recovery
                                            stabilization. Within        Recovery Act,
Title 11-  Assistance for
      11- Assistance    for Unemployed     Workers and Struggling
                            Unemployed Workers             Struggling Families,
                                                                        Families, provided
                                                                                  provided
for a temporary
      temporary increase
                  increase in extended
                               extended unemployment
                                          unemployment benefits
                                                            benefits under
                                                                       under the RUIA.
Section
Section 2006(a)
          2006(a) appropriated   funding for a temporary
                   appropriated funding          temporary increase
                                                              increase in extended
                                                                           extended
unemployment
unemployment benefits
                 benefits under
                           under the RUIA to employees
                                                 employees receiving
                                                               receiving normal
                                                                          normal
unemployment
unemployment benefits      for days
                 benefits for  days between
                                    between JulyJuly 1, 2008
                                                        2008 and June
                                                                    June 30, 2009. The full
            provisions of the law, upon which management
text of the provisions                             management asserted
                                                                   asserted its compliance,
                                                                                 compliance,
is presented      Attachment 1 to this report.
   presented as Attachment

OBJECTIVES, SCOPE, AND METHODOLOGY

RRB management
       management is responsible        for complying
                           responsible for  complying with the
                                                           the requirements
                                                                 requirements of the
Recovery
Recovery Act  Act as applicable
                     applicable to the RRB. Our     responsibility is to express
                                               Our responsibility        express an
opinion
opinion on the RRB's        assertion of
                   RRB's assertion    of compliance
                                         compliance based
                                                     based on ourour examination.
                                                                     examination. In order
                                                                                     order
to fulfill
   fulfill this
           this responsibility,
                responsibility, we:

   •   examined, on a test
       examined,       test basis, evidence
                                   evidence supporting
                                            supporting extended
                                                       extended unemployment
                                                                  unemployment
       benefit payments
       benefit payments made
                         made by the RRB pursuant
                                            pursuant to the requirements
                                                            requirements in
       section
       section 2006(a)
               2006(a) of the Recovery       through September
                              Recovery Act, through  September 3, 2009; and
   •   obtained an understanding
       obtained     understanding of the RRB's
                                          RRB's operations
                                                 operations as they  pertain to
                                                               they pertain
       compliance with section
       compliance       section 2006(a)
                                 2006(a) of the Recovery
                                                Recovery Act, including
                                                              including
       applicable
       applicable internal
                  internal controls.
                           controls.

We limited our assessment
We                assessment of internal
                                    internal control to selected
                                                        selected controls
                                                                   controls over
                                                                            over
compliance with section
compliance          section 2006(a)
                             2006(a) of the Recovery
                                              Recovery Act. Because
                                                               Because of inherent
                                                                             inherent
limitations
limitations in internal
               internal control,
                         control, error, fraud or other
                                                  other losses
                                                         losses may
                                                                  may nevertheless
                                                                       nevertheless occur
                                                                                      occur
             detected by our examination.
and not be detected              examination. We           caution that
                                                We also caution     that projecting
                                                                         projecting our
evaluation to future
evaluation              periods is subject
                future periods     subject to the risk that  controls may
                                                        that controls  may become
                                                                            become
inadequate
inadequate because
              because of of changes
                            changes in conditions
                                         conditions or that
                                                        that the degree
                                                                  degree of compliance
                                                                              compliance
with controls
      controls may
               may deteriorate.
                      deteriorate. We
                                    We also caution
                                              caution that
                                                       that our internal
                                                                 internal control
                                                                          control testing
                                                                                  testing
              sufficient for other
may not be sufficient        other purposes.
                                    purposes.

Our examination
Our examination was     conducted in accordance
                  was conducted          accordance with attestation
                                                              attestation standards
                                                                          standards
established by the American
established                      Institute of Certified
                    American Institute        Certified Public
                                                           Public Accountants
                                                                  Accountants and
     generally accepted
U.S. generally  accepted government
                            government auditing
                                           auditing standards.
                                                      standards. Those
                                                                    Those standards
                                                                           standards
require examining,
require examining, on a test
                           test basis, evidence
                                         evidence supporting
                                                    supporting the RRB's
                                                                       RRB's assertion
                                                                              assertion of
compliance with
compliance        section 2006(a)
             with section   2006(a) of the Recovery
                                             Recovery Act, and performing
                                                                     performing such
                                                                                 such other
                                                                                       other
procedures
procedures   as we  considered    necessary    in the   circumstances.
                    considered necessary the circumstances. We believe thatWe  believe  that
our examination
our examination provides
                  provides a reasonable
                               reasonable basis
                                              basis for
                                                     for our
                                                          our opinion.
                                                              opinion. Our
                                                                         Our examination
                                                                             examination
does not provide
does      provide a legal
                     legal determination
                            determination on the RRB'sRRB's compliance
                                                               compliance with   specified
                                                                            with specified
requirements.
requirements.


                                              2
RRB MANAGEMENT'S COMMENTS

RRB
RRB management
     management expressed
                     expressed appreciation
                                 appreciation for both the
                                                        the GIG's   examination and
                                                            GIG's examination      and our
                                                                                       our
concurrence
concurrence    with management's    assertion that
                    management's assertion that    the  RRB   complied   with  the extended
                                                        RRB complied with the extended
unemployment
unemployment benefit
                  benefit payment  provisions of the Recovery
                          payment provisions                     Act. They
                                                     Recovery Act.     They stated
                                                                              stated that
                                                                                     that they
                                                                                          they
are
are particularly
    particularly proud of the work
                               work accomplished
                                    accomplished by their    staff which
                                                       their staff which involved
                                                                          involved significant
                                                                                    significant
system
system and procedural
             procedural changes
                           changes within
                                   within a brief
                                            brief period of time.
                                                            time.

The full text of management's response follows as Attachment 2 to this report.


Original Signed by...




Martin J.
Martin J. Dickman
          Dickman
Inspector
Inspector General
           General
March
March 10,2010
        10,2010




                                               3
                                                                                 Attachment 1

                  American
                  American Recovery
                             Recovery and
                                      and Reinvestment  Act of
                                           Reinvestment Act of 2009
                                                               2009
                   Provisions
                   Provisions Subject
                               Subject to
                                       to Management's  Assertion
                                          Management's Assertion

SEC. 2006. TEMPORARY
                 TEMPORARY INCREASE     INCREASE IN EXTENDED                     UNEMPLOYMENT
                                                                 EXTENDED UNEMPLOYMENT
 BENEFITS
 BENEFITS UNDER UNDER THE RAILROAD    RAILROAD UNEMPLOYMENTUNEMPLOYMENT
INSURANCE
 INSURANCE ACT.     ACT.
(a) ININ GENERAL.-Section
         GENERAL.-Section                 2(c)(2)
                                          2(c)(2) of the RailroadRailroad Unemployment
                                                                            Unemployment
Insurance
 Insurance    Act    (45   U.S.C.     352(c)(2))
                           U.S.C. 352(c)(2))            is  amended
                                                            amended      by  adding at the
                                                                             adding    the
end the following:
           following:
"(D) TEMPORARY
        TEMPORARY INCREASE   INCREASE IN EXTENDED    EXTENDED UNEMPLOYMENT
                                                                        UNEMPLOYMENT
BENEFITS.-
 BENEFITS.-
"(i) EMPLOYEES
      EMPLOYEES WITH       WITH 10 OR MORE     MORE YEARS    YEARS OF
SERVICE.-Subject
 SERVICE.-Subject              to clause
                                  clause (iii), in the case    case ofof an
employee
 employee who has 10 or more         more years
                                              years of serviceservice (as
so defined),
     defined), with respect
                         respect to extended
                                         extended unemployment
                                                           unemployment
benefits-
 benefits-
"(I) subparagraph
      subparagraph (A) shall    shall be applied
                                             applied by substituting
                                                                substituting
'130 days of unemployment'
                  unemployment' for '65 days           days
of unemployment';
    unemployment'; and
"(II) subparagraph
       subparagraph (B) shall be applied      applied by
inserting
 inserting '(or, in the case case of unemployment
                                         unemployment benefits,    benefits,
13 consecutive
     consecutive 14-day14-day periods)'
                                  periods)' afterafter '7
consecutive
 consecutive 14-day
                 14-day periods'.
                              periods'.
       EMPLOYEES WITH
"(ii) EMPLOYEES            WITH LESS LESS THAN THAN 10 YEARS    YEARS OF
 SERVICE.-Subject
SERVICE.-Subject               to clause
                                  clause     (iii),  in   the  case
                                                               case ofof an
employee who has less than
employee                           than 10 yearsyears of service
                                                               service (as
so defined),
     defined), with respect
                         respect to extended
                                         extended unemployment
                                                           unemployment
 benefits, this paragraph
benefits,         paragraph shall apply     apply to such an
employee in the same
employee                same manner
                                  manner as this paragraph  paragraph would
                                                                         would
                employee described
apply to an employee             described in clause clause (i) if such
                                                                      such
clause had not been enacted.
clause                         enacted.
       APPLICATION.-The
"(iii) APPLICATION.-The                provisions of clauses
                                       provisions             clauses (i)
                 apply to an employee
and (ii) shall apply                employee who     who received
                                                             received normal
                                                                         normal
 benefits for days
benefits        days of unemployment
                             unemployment under       under this Act Act
during the period
during         period beginning
                          beginning July July 1, 2008,
                                                     2008, and endingending
     June 30, 2009,
on June          2009, except
                           except thatthat no extended
                                                  extended benefit benefit
          under this paragraph
period under              paragraph shall begin after         after
 December 31, 2009. Notwithstanding
December                       Notwithstanding the preceding    preceding
sentence, no benefits
sentence,          benefits shall be payable payable under   under this
subparagraph
subparagraph         and    clauses
                           clauses      (i) and     (ii)  shall   no longer
                                                                     longer
     applicable upon the exhaustion
be applicable                     exhaustion of the funds      funds appropriated
                                                                       appropriated
under    clause
under clause       (iv)  for  payment
                              payment       of  benefits
                                                benefits under under
       subparagraph.
this subparagraph.
"(iv) APPROPRIATION.-Out
       APPROPRIATION.-Out                    of any fundsfunds in the
Treasury not otherwise
Treasury          otherwise appropriated,
                                  appropriated, there     there are appropriated
                                                                       appropriated
$20,000,000 to cover
$20,000,000            cover the costcost of additional
                                                 additional
extended unemployment
extended     unemployment benefits   benefits provided
                                                   provided under under this
                                                                          this
subparagraph,
subparagraph,         to  remain     available
                          remain available           until   expended."
                                                             expended."

                                                 4
                                                                           Attachment 2

                    UNITED STATES
                           STATES                                                      FORM G-116f
                                                                                       FORM G-116f(1-92)
                                                                                                   (1-92)
                    GOVERNMENT
                    GOVERNMENT                                      RAILROAD RETIREMENT
                                                                    RAILROAD RETIREMENT BOARD
                                                                                        BOARD

                    MEMORANDUM
                    MEMORANDUM
                                                                    MAR 22
                                                                        22 2010

TO:            Diana
               Diana Kruel
               Acting
               Acting Assistant
                      Assistant Inspector
                                Inspector General for Audit
                                          General for Audit


FROM:          Catherine
               Catherine A.
               Director
               Director of
                             Leyse~ (J X~~
                          A. Leyse~
                           Assessment
                                       )?(..ec~
                                          (J
                           Assessment and Training
                                          Training                    (J
THROUGH:       Dorothy
               Dorothy Isherwoo
                        Isherwoo
               Director
               Director of Programs
                           Programs


SUBJECT:       Draft
               Draft Report
                     Report --
 Examination of Management's
                                Examination of               Assertion of
                                               Management's Assertion   of
               Compliance
               Compliance with
                            with the Extended
                                      Extended Unemployment    Benefit Payment
                                                Unemployment Benefit   Payment
               Provisions
               Provisions of
                           of the American
                                  American Recovery   and Reinvestment
                                            Recovery and  Reinvestment Act
                                                                         Act of
                                                                             of
               2009


EXAMINATION
EXAMINATION OF MANAGEMENT'S
               MANAGEMENT'S ASSERTION     COMPLIANCE WITH
                             ASSERTION OF COMPLIANCE       THE
                                                      WITH THE
EXTENDED
EXTENDED UNEMPLOYMENT
          UNEMPLOYMENT BENEFIT
                        BENEFIT PAYMENT
                                PAYMENT PROVISIONS    THE
                                        PROVISIONS OF THE
AMERICAN
AMERICAN RECOVERY
          RECOVERY AND REINVESTMENT  ACT OF 2009
                       REINVESTMENT ACT     2009


Overall
Overall          appreciate the DIG's
             We appreciate       DIG's examination
                                       examination and their
                                                          their concurrence
                                                                concurrence with
                                                                               with our
                                                                                    our
Comments
Comments     assertion that the RRB complied
             assertion               complied with the requirements
                                                         requirements ofof the
                                                                           the American
                                                                                American
             Recovery and Reinvestment
             Recovery        Reinvestment Act
                                          Act of
                                              of 2009
                                                 2009 with
                                                        with regard
                                                             regard to the
                                                                         the Extended
                                                                             Extended
             Unemployment Benefit Payments.
             Unemployment            Payments. We are particularly
                                                           particularly proud
                                                                        proud of
                                                                               of the
                                                                                  the work
                                                                                      work
             accomplished by our staff which involved
             accomplished                     involved significant
                                                         significant system
                                                                     system and
                                                                              and procedural
                                                                                   procedural
             changes within a very brief period of time.
             changes



cc:        Director of Policy and Systems




                                             5
